<html>
<title> - FIELD HEARING: CENTENNIAL, CO: INNOVATIONS IN THE SCHOOL TO SMALL BUSINESS PIPELINE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
   FIELD HEARING: CENTENNIAL, CO: INNOVATIONS IN THE SCHOOL TO SMALL 
                           BUSINESS PIPELINE

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON INNOVATION AND WORKFORCE DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           NOVEMBER 22, 2019

                               __________

                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               

            Small Business Committee Document Number 116-063
             Available via the GPO Website: www.govinfo.gov
             
             
                              ______
                          

               U.S. GOVERNMENT PUBLISHING OFFICE 
 38-352                  WASHINGTON : 2020             
             
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jason Crow..................................................     1

                               WITNESSES

Ms. Sarah LC Grobbel, Assistant Superintendent, Career & 
  Innovation, Cherry Creek Schools, Greenwood Village, CO........     5
Mr. Noel Ginsburg, Founder & CEO, CareerWise Colorado, Denver, CO     7
Mr. Matthew Kaplan, Vice President, Business Development and 
  Membership, Outdoor Industry Association, Boulder, CO..........    10
Mr. Garry Edmondson, Program Administrator, Colorado Journeyman & 
  Apprentice Program IUOE L9, Bennett, CO........................    12

                                APPENDIX

Prepared Statements:
    Ms. Sarah LC Grobbel, Assistant Superintendent, Career & 
      Innovation, Cherry Creek Schools, Greenwood Village, CO....    22
    Mr. Noel Ginsburg, Founder & CEO, CareerWise Colorado, 
      Denver, CO.................................................    25
    Mr. Matthew Kaplan, Vice President, Business Development and 
      Membership, Outdoor Industry Association, Boulder, CO......    28
    Mr. Garry Edmondson, Program Administrator, Colorado 
      Journeyman & Apprentice Program IUOE L9, Bennett, CO.......    33
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


          INNOVATIONS IN THE SCHOOL TO SMALL BUSINESS PIPELINE

                              ----------                              


                       FRIDAY, NOVEMBER 22, 2019

                  House of Representatives,
               Committee on Small Business,
          Subcommittee on Innovation and Workforce 
                                       Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:09 a.m., at 
Cherry Creek Innovation Campus, 8000 S. Chambers Road, 
Englewood, CO, Hon. Jason Crow presiding.
    Present: Representative Crow.
    Chairman CROW. Good morning. The committee will come to 
order. Thank you all for joining us this morning and a special 
thanks to the witnesses for being here today. For those in 
attendance, I would like to share some background on the 
proceedings.
    This is a formal field hearing of the House Committee on 
Small Business, and due to this format, there is not an 
opportunity for questions or public comments from the audience 
at this time, but I do want to thank everyone for your 
attendance and interest in this issue.
    These field hearings are actually a really unique 
opportunity and as the Chair of the Innovation and Workforce 
Development Subcommittee, what we like to do is just go out 
into the community, go back to our districts, and then come to, 
you know, amazing innovative places like this and it allows us 
to actually collect best practices and things that are being 
done out in the district and throughout the country, get those 
facts and issues into the Congressional record so that we can 
make better informed decision in D.C. We can work with the 
staff to identify issues and promote legislation.
    So this is a really valuable way to do that and we 
appreciate your participation in that process. So as the 
Chairman of the Subcommittee on Innovation and Workforce 
Development on the Small Business Committee, one of my goals 
this year has been to look at the labor needs for small 
businesses and entrepreneurs and finding ways to expand 
educational opportunities for our workers to succeed in the 
21st century.
    I strongly believe that small businesses are the backbone 
of America and I am committed to help our small businesses find 
and train the talent that they need to succeed. Over the past 
decade, our economy has seen a dramatic shift in terms of work 
force needs especially here in Colorado. Similar to many 
economic metrics, Colorado is leading the way with a 2.7 
percent unemployment rate, even lower in our Congressional 
district, more than a full percentage point below the national 
average.
    But the ability to continue to expand businesses and grow 
businesses is being substantially hindered by ongoing problems 
that my colleagues and I in the Small Business Committee hear 
about from many small businesses all the time who are simply 
unable to find the qualified workers and the workforce that 
they need to meet their growing needs. An aging workforce 
combined with a growing skills gap among our current workforce 
in a broken immigration system is keeping all firms from 
reaching their full potential.
    In their latest report released earlier this month, the 
Bureau of Labor Statistics found that there are currently more 
open jobs than people seeking to fill them. This poses a 
problem for many businesses who cannot find the talent that 
they need to grow and thrive.
    According to Pew research, 10,000 baby boomers will turn 65 
every day for the next decade, and while demand for jobs and 
clean and renewable energy and construction remain high, small 
firms are having a harder time finding workers to meet this 
demand in many industries. These reasons emphasize the 
importance of improving our education system and finding 
innovative ways to address workforce needs. This can happen by 
creating a massive workforce mobilization effort through public 
and private partnerships at all levels of education to prepare 
for the future work in our country.
    From the deficiency of construction workers and technicians 
who could retrofit every building in America for energy 
efficiency and transform our energy sources to combat the 
climate crisis, to the lack of healthcare workers that could 
expand access to veterans and children in even the most rural 
places in America, all industries are feeling the strain of an 
adequate pathways to employment.
    We are seeing the shortcomings of traditional American 
career pathways in real time. This country's crushing student 
debt burden of $1.5 trillion decreases demand and limits our 
young people's ability to start families and buy houses, take 
risks, or become entrepreneurs. While still valuable for many 
industries, four-year educational institutions can often 
neglect to train workers for highly skilled and middle income 
skilled jobs, which make up 47 percent of all jobs here in 
Colorado.
    These middle skills professions are in a variety of 
industries and support the jobs in construction, healthcare, 
transportation, and public safety, many of which are dominated 
by small businesses. Furthermore, 86 percent of our employers 
see the skills gap as a threat to their businesses. The 
inability for small firms to attract, hire, and retain 
qualified workers make the U.S. less competitive and 
incentivize many businesses to take their operations overseas.
    For many labor intensive businesses that cannot be 
outsourced, they are forced to rely on worker visas, which are 
in short supply and high demand, unlikely to increase under the 
current Administration. Luckily, our State is seeking to change 
the conversation on how we educate our young people for the 
future. We are innovating new pathways in the school to 
business pipeline that can empower people and expand their 
career opportunities throughout life.
    And there is really no better example frankly of this work 
than where we are sitting today, which is really a model in my 
view in the country for how we can do this at a local level. I 
am very proud to be here and to share this with the rest of the 
country.
    Apprenticeships in career and technical education, or CTE, 
are becoming more attractive ways of developing our future 
workforce. Not only are they less costly than four year 
college, they combine classroom learning with on-the-job 
training, maximizing engagement and providing a fuller learning 
experience.
    I hope that today's discussion will shed light on the ways 
apprenticeships and training programs, especially those in 
Colorado, are revolutionizing workforce development, helping 
small businesses obtain the workers they need. I look forward 
to following up with my colleagues in Washington and work hard 
to bring down educational barriers to entry and expand the 
American workforce.
    Now, I will just take a moment to explain how this hearing 
will work. First, I will introduce all our witnesses and then 
each will be given some time to make an opening statement that 
summarizes the written testimony. We usually use a five-minute 
time for this and in D.C. where we are pretty stringent about 
it, but since we are back here in Colorado, we will be less 
stringent. But I still do ask that you try to abide by the 
five-minute rule to the best of your ability.
    Now, I would like to introduce our witnesses for today's 
panel. Our first witness is Ms. Sarah Grobbel, Assistant 
Superintendent of Career and Innovation Campus of Cherry Creek 
Schools. Since graduating from Michigan State University--I am 
a Badger so. We had the big ten thing. It is okay.
    Since graduating from MSU with a degree in Mathematics and 
Chemistry, she has spent the last 20 years serving the Cherry 
Creek School District, first as an Educator, then as an 
Assistant Principal and Principal. Your experience and wisdom 
and education in innovation has led her to our current position 
as the Assistant Superintendent of the Cherry Creek School 
District focusing on innovative ways to educate students.
    She has also played a critical role in establishing the 
Cherry Creek Innovation Campus where we sit today, where we are 
holding this hearing today. This is a new 117,000 square foot 
campus opening just this August offering many areas of study 
from construction management to cooking and airplane 
maintenance and cybersecurity. Thank you for being here.
    Our second witness is Mr. Noel Ginsburg, the Founder and 
CEO of CareerWise Colorado. Mr. Ginsburg has decades of 
experience as an entrepreneur and serving Coloradans through 
many initiatives. Since founding Intertech Plastics while in 
his senior year at the University of Denver, he has received 
the Martin Luther King Social Responsibility Business Award in 
1995, the Daniel Richie Award for Ethics and Business in 1998, 
the 2001 Leadership Denver Outstanding Alumni Award, the 2012 
Goodwill Community Leader Award, and the Anti-Defamation 
League's 2016 Civil Rights Award.
    Well, I find myself asking what I have accomplished in my 
life compared to you, Noel. Additionally, Mr. Ginsburg is a 
member of the State Economic Development Commission and the 
Colorado Workforce Development Council, a Board member of the 
Metro Denver Chamber of Commerce, and the Chair of the Denver 
Public Schools College and Career Pathways Council. Continuing 
his civic-minded leadership, he is the Founding Executive Chair 
of the Board for CareerWise Colorado, a statewide nonprofit 
organization dedicated to building the middle class by closing 
the skills gap through experiential learning.
    And I would also add a dear friend. So thank you Noel for 
joining us. Our third witness is Mr. Matthew Kaplan, Vice 
President of Business Development and Mentorship at the Outdoor 
Industry Association. Mr. Kaplan has an MBA in International 
Business from Thunderbird, and upon graduation quickly combined 
as passions for the outdoors with his educational background. 
Working in the outdoor industry for over 20 years, Mr. Kaplan 
has worked and outdoor electronics world, starting the outdoor 
division of ACR Electronics.
    As President and Managing Director of Suunto North America 
and top positions at Footbalance North America, Timberland, and 
Ibex Outdoor Clothing, and as Vice President at the Outdoor 
Industry Association, Mr. Kaplan is overseen organizational 
revenue objectives, new business development, and revenue 
diversification.
    He also works with other Industries defined areas of 
alignment as well as university partners across the country 
launching the first of its kind continuing education platform 
for the outdoor industry. Thank you for being here today.
    Our fourth witness is Mr. Garry Edmondson, the 
Apprenticeship Administrator for IUOE Local 9, Colorado's 
journeyman and apprenticeship training. Mr. Edmondson has 
nearly 40 years of experience as a member of the International 
Union of Operating Engineers.
    He has spent his time as a dirt hand, a certified crane 
operator, apprenticeship program instructor, and administrator, 
and as a certified crane tester, and served on the National 
Board for the Crane Operator Certifying Program. Mr. Edmondson 
has spent his career in the heavy equipment operation side of 
construction. Thank you for being here today.
    As somebody that worked in construction to help pay my way 
through college, I love the fact that we both started out 
working as hands on construction sites, and I have a special 
place in my heart for your work.
    So, thank you for being here today. Ms. Grobbel, you are 
recognized for five minutes.

   STATEMENTS OF SARAH LC GROBBEL, ASSISTANT SUPERINTENDENT, 
  CAREER AND INNOVATION, CHERRY CREEK SCHOOLS; NOEL GINSBURG, 
  FOUNDER AND CEO, CAREERWISE COLORADO; MATTHEW KAPLAN, VICE 
    PRESIDENT, BUSINESS DEVELOPMENT AND MEMBERSHIP, OUTDOOR 
 INDUSTRY ASSOCIATION; GARRY EDMONDSON, PROGRAM ADMINISTRATOR, 
       COLORADO JOURNEYMAN AND APPRENTICE PROGRAM IUOE L9

                 STATEMENT OF SARAH LC GROBBEL

    Ms. GROBBEL. Thank you. Chairman Jason Crow, Ranking Member 
Balderson, and members of the Subcommittee, thank you for 
holding this hearing at the Cherry Creek Innovation Campus in 
Cherry Creek School District as part of the Innovations in the 
School to Small Business Pipeline. I am honored to offer my 
perspective during this time of educational shift in the United 
States.
    On behalf of the Cherry Creek School District Board of 
Education, President Karen Fisher, members, Ms. Kelly Bates, 
Ms. Anne Egan, Ms. Angela Garland, and Ms. Janice McDonald, and 
Superintendent, Dr. Scott Siegfried, we welcome you to Cherry 
Creek Schools and to the Cherry Creek Innovation Campus.
    In 2015, the Colorado Department of Education made changes 
to the graduation guidelines for the class of 2021. Cherry 
Creek Schools seized this opportunity to engage students, 
parents, educators, community members, business partners, and 
higher education leaders in a conversation regarding the 
portrait of a successful graduate in Cherry Creek Schools to 
create the vision of Cherry Creek 2021.
    It was through this work that Cherry Creek Schools changed 
its goals to inclusive excellence and college and career 
preparedness and success as we recognized our goal to create 
learners who focus on innovation, critical thinking, real world 
experiences, project-based learning, relevancy, communication 
skills, adaptability, and teamwork.
    The Cherry Creek Innovation Campus would be the cornerstone 
to this work and my passion project over the next three years. 
In November of 2016, the community and stakeholders of Cherry 
Creek Schools passed a local bond measure for the capital 
project which made the Cherry Creek Innovation Campus a reality 
for Cherry Creek Schools.
    The pathways include advanced manufacturing, business 
services, health and wellness, hospitality and tourism, IT and 
STEAM, infrastructure and engineering, and transportation, 
includes both aviation and automotive coursework.
    The campus is a standalone college and career preparedness 
facility accessible for high school students in the Cherry 
Creek Schools. With curriculum rooted in real-world skills and 
trade certifications ranging from the computer sciences to 
aviation to health and wellness as well as college credit 
options in all pathways, this facility offers students a new 
bridge to college and viable, successful careers.
    More importantly, students are not asked to choose between 
workforce or college after high school. This programming is for 
students going on to two and four-year colleges, military, or 
workforce, as well as aiding the student who is still trying to 
connect to his or her career passions and interests.
    As is the mission of Cherry Creek Schools, the Innovation 
Campus was designed to inspire our students to think, to learn, 
to achieve, to care from the moment that they walk through the 
main entrance. The intentionality in creating a partnership 
with industry is what has made this facility stand out across 
the country.
    We engaged industry partners to help us build the concept 
of each pathway as well as the curriculum and instruction. 
Principal Mark Morgan and his cadre spent endless hours over 
the last two years with our architect, contractor, student 
advisory group, community stakeholder group, and our industry 
partners to fulfill the vision of 2021 for the Cherry Creek 
Schools.
    We also used documents like the Colorado Talent Pipeline 
Report to guide our pathway choices. We stand on the shoulders 
of the pioneer career and technical education teachers in our 
district who have built a solid foundation for 21st century 
professional coursework in our schools over the last decade.
    Our programming includes career exploration, career and 
technical education courses tied to the career and technical 
education career cluster models, internships, and 
apprenticeships. Over the past three years, we have also 
participated in Colorado's legislated Career Development 
Incentive Program, which recognizes the number of students 
earning industry credentials and participating in internships 
each year.
    We are proud of the work we are doing with CareerWise 
Colorado, which you will hear about in just a second, in 
creating apprenticeship opportunities for our students. Through 
this partnership, we are successfully linking students to 
career opportunities with a focus on work-based competencies 
and postsecondary education for each apprentice. Our goal is to 
create an apprenticeship for each pathway in our career and 
technical education coursework.
    This fall, we opened our newest apprenticeship, Future 
Educator Pathway Apprenticeship. As the employer of the 
apprenticeship, we are hiring our current high school students 
who would like to pursue a degree in education as 
paraprofessionals working part-time in our K-8 schools.
    We are also investing in these apprentices by providing 
college credit for coursework necessary to earn a teaching 
certification down the road. Like many industry partners, we 
are excited about the concept of growing our own to create a 
pipeline of educators that may help us fill the future job 
shortage in education.
    The Cherry Creek Innovation Campus opened our doors on 
August 12th, to nearly 1,000 students, with another 1,000 
students expected next semester. Although we have much to be 
proud of at this stage, we recognize our work is not done. We 
will continue to focus on creating pathways of purpose for our 
students with a formalized individual career and academic plans 
for every student from 6th through 12th grade and beyond.
    We will also look at future bond measures which will allow 
our school district to add additional pathways of purpose for 
students in our district as part of Cherry Creek's future 
forward strategic planning.
    As we continue to strive to be the pipeline for our 
students from education to healthy and meaningful careers, we 
ask for your help. According to Education Week, the average 
per-pupil funding in education across the United States is 
$12,756 as of June 2019. This per-pupil spending amount is 
adjusted for regional cost differences across States, and it 
captures factors such as teacher and staff salaries, classroom 
spending, and administration, but not construction or other 
capital spending.
    Colorado ranks in the bottom five of all States at an 
average per pupil funding of $10,053. This discrepancy in 
funding has caused many school districts in States like 
Colorado to look at local funding sources, especially 
partnerships with industry, to maintain the level of excellence 
expected by families and community members.
    Our success in the Cherry Creek Innovation Campus has been 
creating meaningful relationships with industry partners and 
higher education to provide our students with curriculum and 
instruction grounded in real-world experiences.
    We ask that as a committee that you continue to include K-
12 education in workforce development discussions so that we 
can continue to grow with you in these conversations. Please 
encourage local business to engage with their community 
educational partners, and most importantly, focus on better 
funding sources for all K-12 schools throughout the country 
including and specially the financial support of local 
business.
    What we have described today has proven to be a significant 
return on investment for students, community, industry, and 
local economy. We know what we have created together today will 
change education tomorrow, because this effort is not just 
education or industry but the perfect combination of both.
    Thank you for this time.
    Chairman CROW. Thank you, Ms. Grobbel.
    Mr. Ginsburg, you are recognized for five minutes.

                   STATEMENT OF NOEL GINSBURG

    Mr. GINSBURG. Good afternoon and thank you for coming here 
today to learn about apprenticeships, and Sarah, for making 
sure that I did graduate from this high school years ago. 
Although you probably weren't responsible.
    Chairman CROW. Ask how many years ago.
    [Laughter.]
    Mr. GINSBURG. Thank you. My name--I don't want that in the 
Congressional record. My name is Noel Ginsburg. I am the 
Founder and Chairman of a local manufacturing company Intertech 
Plastics and Intertech Medical, but I am also the Founder and 
CEO of CareerWise.
    Four years ago, CareerWise set out to build a youth 
apprenticeship system here in Colorado and in the United 
States. The reason I founded CareerWise is the same reason you 
are here today.
    And if you take anything away from today's field hearing it 
should be this, apprenticeship, in particular youth 
apprenticeship, can be transformational. It can transform our 
workforce and talent pipelines. It can transform our economy 
and middle-class. And most importantly, it can transform the 
lives of our young people through opportunity.
    Today as a society we are all in on the four-year degree as 
an unobstructed path to the middle class, but the reality is 
that there are lots of challenges along that path. It only 
successfully serves about 25 percent of our young people in 
Colorado, and with the rising cost of higher education and 
skyrocketing student debt, it is clear those numbers aren't 
going to get better anytime soon.
    Meanwhile, industry cannot find enough skilled workers to 
hire into their early-career roles. This is true of the 
construction trades, but it is also just as true in fields like 
IT, financial services, and business operations. Even the 
workers hired from prestigious schools graduate with the 
baseline theoretical knowledge in their fields, take tens of 
thousands of dollars and months and months of training in their 
practical execution of the job.
    Don't misunderstand, higher education is important and 
valuable for many people and many professions but not all of 
them. Youth apprenticeship offers practical learning, and with 
it an illuminated and prestigious path to the middle class that 
may or may not run through college.
    A CareerWise apprenticeship is designed to intersect with 
higher ed. Apprentices graduate the program with the 
opportunity to earn up to a semester's worth of debt-free 
college credit and a focused perspective on how additional 
education can further their career and life goals.
    The system we are building at CareerWise is more than just 
an education program that turns the workplace into an applied-
learning environment--though it is that too. Modern youth 
apprenticeship in America is smart business. It is not 
philanthropy. Employers aren't just writing a check and leaving 
the details to someone else.
    Apprenticeship changes the paradigm of early workforce 
development. Industry takes an active role in shaping their 
future workforce. Starting as juniors in high school, 
apprentices spend part of the week in school in their academic 
pursuits, and part of the week in the workplace, learning by 
doing and producing valuable work for the employer.
    Apprenticeship is different from internship. Whereas 
interns are often only in their roles for a short amount of 
time, performing low-value tasks, apprentices are trained over 
multiple years to step directly into early-career positions. In 
the CareerWise model, those roles are all high-growth, high-
wage positions.
    The occupations in a CareerWise apprenticeship and the 
integration of higher-ed coursework are intended to ensure that 
there are no dead ends. Apprenticeship can take a young person 
from the workplace to a PhD, or from the classroom to a corner 
office. Apprenticeship is an options multiplier. The 
opportunity it presents to industry and students is made 
possible only through true partnership and dynamic 
collaboration.
    Evidence that collaboration between these two very 
different institutions is not only possible but incredibly 
fruitful, as this building we are in right now proves. The 
Cherry Creek Innovation Center is the physical manifestation of 
just such a partnership, as well as the leadership of these 
pioneers in work-based learning, the Superintendent Scott 
Siegfried, and Sarah Grobbel, Cherry Creek's Assistant 
Superintendent of Career and Innovation.
    It is in this building that the practical and the 
theoretical are coming together to offer more educational 
opportunities and strengthen America's workforce. It is career-
focused centers like this one that represent the systems 
change, a new bridge between industry and education that is 
beginning to take root across America.
    Finally, when students that attend the Cherry Creek 
Innovation Center are matched with apprenticeships, their 
success in their future career will be significantly enhanced 
and the return on investment for the participating businesses 
will skyrocket.
    During the last two years, CareerWise has hosted 
delegations from across the country to learn about our program 
design, to hear about the collaborative groundwork that we 
established through a Governor-appointed business experiential 
learning commission, to find out about our early challenges and 
how they were overcome, and to see apprentices at work and hear 
from their employers like Pinnacol Assurance, Home Advisor, 
Frontier Airlines, and over 130 employers in the State.
    These trips aren't simply fact-finding missions. The 
learnings the delegations take home are being put to good use. 
As a result, the CareerWise model has been implemented in 
vastly different local economies across the country.
    Today, CareerWise New York has 85 apprentices working for 
companies like JP Morgan Chase, Bank of America, and Amazon, 
and CareerWise Elkhart County in Indiana, where 80 percent of 
the RVs on the road today are manufactured, has apprentices 
working in those advanced manufacturing facilities.
    After the first of the year, CareerWise D.C. will launch as 
well. A few months ago, I was moderating a panel of apprentices 
that work at Pinnocal Assurance in Denver. Towards the end of 
the session, I asked one of the apprentice how she viewed her 
future prior to her apprenticeship. She is African American and 
attends one of the poorest performing schools in her district 
that has a free and reduced launch percentage of over 90 
percent.
    After thinking about the question for a moment, she simply 
said, I didn't think I had one. But she continued, I have 
learned that I bring value to this company and in turn, they 
are giving me an opportunity to build a real career and future 
that I couldn't have dreamed of.
    You could have heard a pin drop as many of us were wiping 
away tears from our eyes. This young lady was just hired as a 
full-time employee at Pinnacol and will earn her Associate 
Degree by the third year of her apprenticeship. Her story 
represents the promise of youth apprenticeship and why I 
believe this is a strategy that can change education and 
workforce in this country.
    The transformation made possible by youth apprenticeship 
spans the macro, the economy, growing the middle class, and 
helping America maintain the most innovative workforce in the 
world, as well as the micro, setting a young person on a course 
that may not have otherwise been available to them, and 
creating the space in someone's workday so that they may impart 
their wisdom to the next generation of workers.
    Thank you for your time and your interest in making these 
kinds of transformations available for every American. Thank 
you.
    Chairman CROW. Thank you, Mr. Ginsburg. Mr. Kaplan, you are 
recognized for five minutes.

                  STATEMENT OF MATTHEW KAPLAN

    Mr. KAPLAN. Chairman Crow, I am pleased to submit testimony 
on behalf of Outdoor Industry Association, OIA, the leading 
national trade association of 1,300 suppliers, manufacturers, 
and retailers of outdoor gear and products. The outdoor 
recreation economy generates $887 billion in consumer spending 
and supports more than 7.6 million highly skilled American 
jobs.
    On behalf of our member businesses, we thank you for 
holding today's hearing to discuss new and innovative 
approaches to educate young people and create a school-to-
business pipeline. Small businesses make up the backbone of the 
outdoor industry, as well as you mentioned earlier. In fact, 78 
percent of OIA's 1,300 members generate revenue of less than 
$10 million.
    These small businesses are especially attentive to 
legislation and regulations that ensure a framework that 
encourages economic growth, promotes outdoor recreation, 
conserves and grows our public lands, protects our environment, 
and ensures clean air and clean water for generations of 
outdoor enthusiasts.
    The Colorado outdoor recreation industry is thriving. 
Colorado's outdoor recreation economy generates $28 billion in 
consumer spending annually and contributes 229,000 direct jobs. 
Those who work in the outdoor industry have collectively earned 
over $9.7 billion in wages and salaries, while those who 
support it have generated $2 billion in State and local tax 
revenue.
    Colorado is the home to many prolific outdoor brands. There 
are over 170 members of OIA based in the State and these 
include several large employers, such as VF Corporation, one of 
whose member brands is The North Face, which recently moved to 
Colorado in 2018, accounting for over 500 new Colorado jobs, 
and Vail Resorts, which owns 37 ski areas around the world, 
five of which are located here in Colorado.
    There are also many small businesses, such as Topo Designs 
and Point 6 socks, as well as the North American headquarters 
of European brands Fjallraven, La Sportiva, and Scarpa. The 
outdoor lifestyle and economic strength of the State creates an 
excellent environment for new brands to test their products and 
solicit investment.
    In 2018, the twice-per-year Outdoor Retailer Show, the 
largest business-to-business trade event serving the outdoor 
industry, picked up stakes from its 22-year home in Salt Lake 
City, Utah, and selected Denver, Colorado, as its new home. It 
is calculated that the two-time-per-year trade show brings 
approximately 25,000 attendees to each show, and over $75 
million in direct and indirect impact to the State.
    Despite the incredible growth and contribution to the 
State's economy, the outdoor industry lacks a traditional on-
ramp for recruiting and seeking new talent in the workforce. 
There are no job fairs, there are very few degree programs, and 
a lack of awareness that the outdoor industry is a viable 
career path for all aspects of business skills and training. 
OIA is working to change all of that and proactively attract 
and retain a continuous stream of a qualified and diverse 
workforce.
    An important step in this process is working with the 
State's educational institutions. Given the impact of this 
sector on the State, it is no surprise that several prominent 
colleges and universities in Colorado had begun to focus on 
degree programs and educational opportunities in outdoor 
recreation including the following to just name a few, the 
University of Colorado Boulder has a Masters of the Environment 
Degree focusing on public lands and climate change, Western 
Colorado University in Gunnison has the first of its kind in 
the Nation, Outdoor MBA, Colorado State University offers a 
degree in Adventure Travel and Tourism, and Colorado Mountain 
College offers a diverse range of outdoor degrees and 
certificates on all of their 11 campuses throughout the State.
    So in 2020, this January, OIA will launch the Outdoor 
Industry Business Certificate Program, the first of its kind, 
outdoor industry online continuing education platform with 
three university partners. Two of these partners are here in 
Colorado, CU Boulder and Western Colorado University in 
Gunnison.
    The certificates will assist individuals who are looking to 
enter the outdoor industry from college or from other 
industries by creating a curriculum that will educate them on 
subjects important to the success in our industry such as 
sustainable product design, public lands management, and 
general outdoor industry business principles, all of which are 
crucial to the success of an outdoor industry professional as 
well as the small businesses who employ them.
    OIA's business certificates are not only designed for 
first-time pathways seekers into the industry but also for 
seasoned professionals from other sectors looking for a new 
career opportunity or to offer scholarships to students from 
under-resourced communities and veterans looking for 
opportunities in the outdoor industry.
    Our hope is that these certificates will create the on-ramp 
needed in our growing sector and allow people to combine their 
personal passions with their professional pursuits. Although 
our history is rooted in hiking, camping, canoeing, 
backpacking, skiing, rock climbing, and many other sports, it 
takes skilled professionals in sales, marketing, finance, HR, 
IT, and manufacturing to bring those products to market and 
make those companies as success. We hope these programs will 
allow us to recruit and retain a strong workforce.
    In closing, I want to thank Representative Crow for having 
this critically important hearing on ways to better recruit and 
prepare the workforce of tomorrow. OIA is proud of the various 
initiatives we are leading and are thankful to be included in 
this conversation.
    We look forward to continuing to work with you to determine 
if there are ways that Congress can support these important 
efforts. Thank you.
    Chairman CROW. Thank you, Mr. Kaplan.
    Mr. Edmondson, you are recognized for five minutes.

                  STATEMENT OF GARRY EDMONDSON

    Mr. EDMONDSON. Thank you, Congressman Crow, for the time to 
speak to you about the Operating Engineers Apprenticeship 
Program in Arapahoe County. My Name is Garry Edmondson. I am a 
37-year member of the International Union of Operating 
Engineers and a Training Coordinator for our apprenticeship 
program. I have spent my career in the construction trade.
    My time was spent operating dirt equipment, learning to be 
a mechanic, and obtaining welding certifications. I went on to 
attain multiple crane certifications and worked to become a 
certified crane tester and have had the opportunity to serve on 
a national board representing a certification program for crane 
operators for 10 years. Nineteen years ago, I took the 
opportunity to become an instructor and an administrator with 
the Operating Engineers Local 101 Apprenticeship Program in 
Kansas City.
    I served there for 14 years before transitioning to my new 
opportunity in Colorado. My experience in heavy equipment 
operation, crane training, welding, and diesel mechanics has 
given me the unique ability to increase the learning 
experiences for the apprentices who come into our union's 
apprentice program.
    I have been the Administrator for the Colorado 
Apprenticeship at the Operating Engineers Local 9 for almost 5 
years. This apprenticeship program is registered with the 
United States Department of Labor, and we are an earn-as-you-
learn program. We have been teaching apprentices and journeyman 
for 65 years in Colorado.
    We have 160 acres and $3 million worth of equipment 
dedicated to the hands-on training and development of union 
apprentices. Our apprenticeship is governed by a committee with 
equal representation from management and the union. As a 
Department of Labor registered apprenticeship, we are held to a 
dedicated set of standards that apply to all apprentices 
equally.
    The program is designed so that apprentices complete their 
training and on-the-job hours in 3 years. As a joint 
apprenticeship, we rely on our signatory contractors to provide 
the real-life work experience and a competitive wage and 
benefits in addition to the required training hours that are 
obtained at our training site. The demand for apprentices has 
grown over the last 5 years.
    For years the interest in trades was overshadowed by the 
push for high school graduates to transition directly into a 
university or college environment. This created a shortage of 
individuals who entered into skilled trades. Trades no longer 
became an option for the students. The benefits of 
apprenticeships were left unknown to a new generation, thus 
creating a shortage of labor and individuals coming into the 
trades.
    We now have an opportunity to change that direction. 
Pathways from high school are critical to continue to provide 
growth in apprenticeship programs and trade businesses. One 
program that we are having success with is the Multi-Craft Core 
Curriculum, MC3, Apprenticeship Readiness Program developed by 
the North American Building Trades Unions. The apprenticeship 
program has been working with the MC3 curriculum participants 
for the last 3 years.
    Throughout the year, we have students who are a part of the 
MC3 program that have a chance to try the equipment, to learn 
about the construction industry, and to get a feel for trades 
in general. Just this week, we enrolled 2 recent graduates from 
schools that participated in the MC3 program. They had the 
opportunity to be at the training site and understand what it 
means to be in an apprenticeship.
    The MC3 program creates a great pathway that introduces 
students to the skilled trades. Industry recognized 
apprenticeship programs, or IRAPs, are not the answer to 
raising awareness about apprenticeship programs. The answer is 
the expansion of programs like the MC3 along with the job 
corps, Helmets to Hardhats, and we also are very active with 
the Department of Corrections here in Colorado--just put a 
former inmate in two weeks ago. All of which we rely on for 
incoming pre-apprentices.
    These programs ensure that apprenticeships like mine, who 
for 65 years have worked closely with contractors to meet 
industry needs can continue to grow and develop apprentices--
many, many of our contractors are small businesses, more with 
less than 25 employees. We need to have access to the next 
generation that are dedicated to growing a career in the 
skilled trades.
    Our apprenticeship program gives an 18-year-old student a 
chance at a lucrative career without incurring college debt or 
student loans. It gives them a choice and opportunity to learn 
a skilled trade that will never go away. This is done with 
tried and true standards that are approved by the U.S. 
Department of Labor.
    Any policies developed or enacted for apprenticeships need 
to include being a registered apprentice program with defined 
training standards. It is these standards that will allow an 
apprenticeship pathway to be successful for future generations. 
Mr. Crow, thank you for your time.
    Chairman CROW. Thank you, Mr. Edmondson. I appreciate your 
remarks. Another benefit of these field hearings is I get to 
ask all the questions myself so I get all the time for me. So I 
will begin by recognizing myself for questions----
    [Laughter.]
    And I will just start--you know, I will start in the way 
that we went with our opening remark, so with you, Ms. Grobbel. 
Would be interested to hear from you, what are the biggest 
barriers that you hear from your students in taking advantage 
of this wonderful opportunity in the training and the 
apprenticeship programs that you have? What are they struggling 
with and encountering as they pursue these training programs?
    Ms. GROBBEL. Now, I would tell you when we really started 
to look at this Innovation Campus, the most important thing was 
access for students. We have an amazing Board of Education and 
Superintendent that understood that this building can only be 
successful if all students have the ability to get here.
    So things like transportation which were able to provide 
from every local high school, looking at Carnegie unit credits 
where kids actually have seat time versus having the ability to 
be a little bit more flexible in some of the core credits that 
they need to meet graduation guidelines. Probably the last 
thing is really the perception of this type of education.
    And again, we are very lucky because we look at this for an 
opportunity for 55,000 students, which is the number of 
students in Cherry Creek Schools. It is for students that not 
only want to go to a two or four-year college but a student 
that wants to go on to the military and, or directly to the 
workforce or that really doesn't know.
    And so the barrier for us is the perception, getting 
parents and community members to understand that this is an 
opportunity for all students no matter what it is that they 
want to do. So we continue to have that barrier but again, with 
some great industry partners, great marketing people are really 
starting to understand how this could fit into a student's 
education.
    Chairman CROW. And Mr. Ginsburg, I would love your thought 
on that last element that Ms. Grobbel just remarked on and that 
is the cultural barrier here, right. That we have this bias 
towards four-year college or university which serves a lot of 
people really well, but you know, we have this deficit of folks 
going into the trades, into CTE and that is one of the things 
that, you know, you remarked on in your beginning--so I would 
love your thoughts on how do we overcome that cultural barrier 
and get people to understand that this is a pathway to a very 
strong middle-class career?
    Mr. GINSBURG. Well, I think it starts with the recognition, 
as I am sure Mr. Edmondson would say, that there is or should 
be equal dignity to either or any of these paths. But 
culturally we have done such an amazing job of convincing 
everyone that there is only one path that that continues to be 
a challenge. And I think the only way you overcome that is 
through example. And whether it is through a youth 
apprenticeship or students that participate in this program 
graduate out of the airframe and power plant courses, and get 
immediate jobs that pay $55,000 or $60,000, that begins to 
change the narrative.
    The young woman that I spoke about at Pinnacle Assurance, 
they are hiring her--she will be earning $50,000 to $60,000 
before she is 25. And so when those stories get out, as well as 
the fact that an apprenticeship included getting her AS degree, 
I think we will begin to change the narrative. I think it is 
critically important that our leadership--the bully pulpit that 
you have as a Congressman I think is so critical, because you 
can speak to the power of apprenticeship and opportunity.
    You can speak to the fact that there is the equal dignity 
in multiple paths. I don't have a four-year degree despite all 
the good efforts of very good schools. I started my company 
when I was in college, and I think we need to recognize that 
there is more than one path and then we need to make the 
investments to make it possible. The infrastructure to do this 
work, not to subsidize businesses to do this, but to ensure 
that the tools like what you are sitting in today are available 
to all kids I think is critically important.
    Chairman CROW. And as a follow-up to that, there is kind of 
a lack of understanding in my view and a lack of awareness not 
just from the student level and the young person's level but 
also with small firms and businesses. And we know that--we have 
heard, and I have heard over the last year, that small firms 
are sometimes hesitant to take on young staff with little to no 
experience.
    So, how can we incentivize small businesses and smaller 
firms at the Federal level to partner with existing 
apprenticeship programs like CareerWise, like the Innovation 
Campus, and limit risks for those small businesses while doing 
that, but also provide them with the workers that they need?
    Mr. GINSBURG. Well, I am somewhat sensitive to providing 
financial incentives to large or small companies because the 
reality of it is, there is a return on investment for companies 
that do this. They are more profitable if they do. With that 
being said, part of this model is having the businesses invest 
in post-secondary education so that they can earn those college 
credits.
    You can make the case that businesses and particularly 
small businesses shouldn't be burdened with paying for 
students' college education. To the extent that we can take 
barriers from Pell Grants--for example, right now an apprentice 
could lose Pell eligibility because of the earnings they get 
while they are in the apprenticeship. Those things need to be 
changed.
    Making an investment in the curriculum development that is 
necessary for the training that takes place in the workplace as 
well as the alignment with what is being trained in the schools 
is an investment that I think makes sense for the Department of 
Education or the Department of Labor. So there are ways that we 
can incentivize them not by providing tax credits because this 
is a profitable strategy for small business.
    But taking the burden of having to pay for education out of 
that, I don't think that necessarily needs to be a part of it. 
Although I will tell you many of our larger companies, they 
have that benefit. So a student that goes through Pinnacle 
Assurance, they will pay for their post-secondary education. It 
is a part of the typical benefits.
    Chairman CROW. And that last point I will mention that I am 
a co-sponsor of the Jobs Act which we recently introduced that 
actually opens up eligibility for student loans and Pell Grants 
and other financial aid for these programs that currently were 
restricted. So that got lost in some of the other things being 
covered in Washington recently, but we are actually doing that 
work and we have heard that message and we are taking action to 
address that issue.
    Ms. Grobbel, do you have any thoughts on that last piece, 
the issue of incentivizing small businesses and firms to kind 
of open up opportunities for your students?
    Ms. GROBBEL. I have had the opportunity to travel to 
Switzerland and actually see the apprenticeship in place for 
what is almost 70 percent of students. That is the path that 
they choose. I again would concur with what Mr. Ginsburg is 
saying. There are so many returns on investment that industry 
gets from participating in this that I would say it is more on 
the front end. Bring them in.
    I would love to introduce you to any one of our 55,000 
students because I would tell you the minute that you meet 
them, you see the types of professional skills that they are 
capable of in a workplace, they are going to be banging down 
our doors to be able to be connected with our students. So very 
excited about maybe that front end piece of how do they connect 
and what is it that they are really going to get.
    Chairman CROW. Mr. Kaplan, I know you mentioned in your 
earlier--in your opening statement that, I believe the number 
was 17 percent, of your member companies have a revenue of 
under $10 million. So would love your views on what are their 
concerns?
    Mr. KAPLAN. It is actually 78 percent.
    Chairman CROW. 78?
    Mr. KAPLAN. Yes. So their take on in terms of internships, 
you are saying?
    Chairman CROW. Yes, apprenticeship program or job training 
program.
    Mr. KAPLAN. Yes. The outdoor industry traditionally has not 
had a very robust internship program and that is something we 
are working to change pretty dramatically. There is a massive 
demand for it. So as an example, Patagonia, a large company 
everybody knows, they had 16 internships last summer, 9,000 
applicants for those 16 positions. So the tide is turning a 
little bit and people are now starting to realize that this is 
more of a viable career path.
    You don't have to necessarily be an avid mountain climber 
who is going to be climbing Everest or doing extreme sports. 
Just getting outside for hikes and walks and those types of 
things are enough to say that you are an outdoor enthusiast. 
And so people are understanding now that if you are a finance 
major, there is an opportunity for you with a small backpack 
company. You don't have to be a rugged backpacker.
    So part of the gap has been that I think there has been a 
misunderstanding or miscommunication that you have got to be 
extreme to work in the industry, but we need every single 
business skill set that any other industry would need, even 
heavy manufacturing and even you know, whether it be finance, 
accounting, HR as I mentioned.
    So there are tremendous opportunities and we are trying to 
change that message and push that outward more to get these 
small businesses the skills and the help that they need.
    Chairman CROW. And you know earlier, just following on that 
point, earlier we talked a little bit about one of the barriers 
to students economically and the value of an earn while you 
learn program as Mr. Edmondson indicated before. Are your 
member companies able to provide those opportunities as well 
something that is paid and does the training so that we make 
sure we have access to all folks?
    Mr. KAPLAN. Yes. And so that is something that is also 
starting to take a more aggressive effort is these sort of 
junior apprenticeships or paid apprenticeships or internships. 
And in fact, we at OIA have done that ourselves and are 
currently seeking someone in D.C. as a matter of fact for our 
office out there for a paid internship. And so yes little by 
little we are starting to turn that tide and get more and more 
people into the industry.
    Chairman CROW. Changing gears slightly, and Mr. Kaplan, it 
is my understanding that the National Governors Association and 
State legislators are working to create offices of outdoor 
recreation in States throughout the country. You know, we have 
one here. Now that--or how have these offices help to kind of 
initiate workforce development program?
    Once again, when we look at what more can they be doing to 
be working with, your members, your groups, local businesses, 
high schools, colleges to expand those opportunity.
    Mr. KAPLAN. Absolutely. Yes, Colorado was the second State 
to implement an Office of Elder Recreation. There are now 17 
States across the country and they have created these offices 
specifically because they have identified this as a growing 
economic opportunity. And one of the things that is going to be 
crucial is those offices continuing to work with their 
institutions of higher learning as well as different trades and 
different trade associations to make sure that there is that 
communication and that pathway from academia into industry.
    And one of the things that OIA is doing is at the twice 
annual, or twice a year trade show I mentioned, we are now 
creating or we are convening a roundtable of HR professionals 
as well as trade colleges and institutions of higher learning 
so that we can be that bridge between industry and up-and-
coming learners.
    Basically to make sure that that these institutions are 
creating curriculum that will help get these students into the 
workforce.
    Chairman CROW. Mr. Edmondson, you alluded to this also in 
your opening statement, but the issue of veterans at your 
program in particular. I have long been a huge fan as a 
veteran's advocate for Helmets to Hardhats Program that I know 
has been very successful with many of the labor apprenticeship 
programs including your own.
    So I would love your thoughts on how we can assist that 
transition even better through programs like that, making sure 
that as our veterans leave military service that they have a 
clear pathway into these programs because we know that you 
know, they are disciplined, they are drug free, they make great 
employees, but we have to make sure that we are capturing them 
into these programs early. And I would love your thoughts on 
that.
    Mr. EDMONDSON. That can be a difficult path to break into. 
It does take a while. Meetings, connections--I am very 
fortunate. I have met a lot of the right people. They got me 
into Fort Carson, Buckley Air Force Base. And we have started--
we really turned a corner on that. We got these sporadic 
military veteran here and there.
    After we all found out and I got with the right people and 
Helmets to Hardhats--they have a website. It is almost like a 
one-stop shopping. You can go on there and actually look for 
somebody that has an interest in my trade, sheet metal, pipe 
fitters or whatever. Getting to know they are out there is two 
biggest obstacle to that. And once you get inside that door, 
the room is really big behind it. Quite frankly, it has been a 
lifesaver to me. And obviously we support our veterans 100 
percent, as you echo.
    They make some of the best employees. They are loyal. They 
are on time, and quite frankly it feels good support them. So 
it takes a while to get know the right people. I am relatively 
new to Colorado. Have been here five years, but now we are full 
steam ahead with it.
    Chairman CROW. Yes, you know, following up on that, I 
really strongly believe that labor unions are going to play a 
really important role here particularly in the building trades 
and heavy construction and other critical areas because you 
have programs that are time-tested. They have been around for 
many decades. They have passed some very stringent 
certification requirements through DOL and there is a lot of 
oversight in many of these programs.
    So, you know, how can we expand the pathways through your 
programs because many of the locals that I visited recently say 
they have these classes and, you know, the plumbers for example 
told me recently that when somebody gets out of their program, 
they could be making $80,000, $90,000 within a couple of years, 
but they can't fill their classes, right.
    They are trying to and have a hard time recruiting folks 
and filling their apprenticeship programs. I would love your 
thoughts on how we can expand pathways and relationships with 
businesses to provide more of those opportunities.
    Mr. EDMONDSON. Good question. The search is always on for 
all of us for quality employees, apprentices. I have a guy that 
does the job for once in a while, which has helped a lot. 
Finding them is the key to it. Retaining them is another key. I 
think we got behind the eight ball somewhere along the line 
several years ago. The average age of an operating engineer is 
somewhere around 53 years old. So with the little unemployment 
rate in Colorado, the competition is extremely fierce for 
somebody out there. Making friends like my new friend Ms. 
Grobbel across the way there. Thank you for having us there. 
Now we have a friend. We are going to do great things together.
    Again, connections is everything. Following up with 
programs, MC3, Helmets to Hardhats, Department of Corrections 
is really what is keeping our heads above water at this point. 
I don't know how they open up much more to be totally honest 
with you. We do job fairs. We average three a week from October 
to somewhere in March. That is a lot of job fairs.
    Chairman CROW. You do those all around Colorado?
    Mr. EDMONDSON. A few weeks ago I was in Grand Junction at 
an MC3 event. We have been to Delta, virtually all over 
Colorado Springs, Fort Carson, Pueblo. If there is a job fair 
and I can fit in my schedule, I am there. We can't not do it.
    Chairman CROW. The process here, what we are going to do is 
I am going to finish by going down the line with a question 
that as we look at funding, Federal investment, what is the 
area that you would like to see us focusing our resources to 
expand these opportunities and kind of grow the economic pie 
and promote small business development in particular?
    So we will just go down the line and then what I will do is 
I am going to gavel us out of the hearing after that so that we 
close the Congressional record and I will open it up if there 
are any questions or thoughts. We can have a discussion that 
includes the other folks in attendance here as well just to 
have the other perspectives in the room. So maybe Ms. Grobbel, 
if you want to start us off?
    Ms. GROBBEL. Sure. I have mentioned already a few things 
today and especially in my initial remarks. Probably the one 
that I have not mentioned was how the curriculum instruction is 
built at this building and it is we sit hand-in-hand with our 
industry partners and build it from day one on. It is tied with 
industry certificates as well as college curriculum.
    One of the things that we recognize when we went to 
Switzerland is that there is a Federal regulation when it comes 
to what is taught within certain pathways of study for 
students. We have already talked about other funding pieces, 
but I would say one of the number one things that the Federal 
Government can help us or at a Federal level would be to start 
to create curriculum instruction that it doesn't matter what 
State you are in, this is really the instruction and curriculum 
that is needed and this is what you should be shooting for.
    If there is any way that we could create kind of Federal 
oversight for that, then again, I recognize that there is also 
a local control within individual States, but we could use that 
support.
    Mr. GINSBURG. I think there are two places in particular 
and one is a continuation of what Ms. Grobbel was saying around 
curriculum. The curriculum that is taught in business as a part 
of the apprenticeship is expensive to develop. And to have the 
resources that lead to registered or unregistered 
apprenticeships that are of high quality, because the 
curriculum is well-designed is industry advised, actually is a 
very complex and expensive investment.
    The second piece that I think would be very helpful is 
around educating, you know, our citizens that there are 
multiple paths of opportunity that should exist in our economy 
and that apprenticeship is one of them. And that having the 
skills that enable you to gain access into the middle class and 
make college more affordable, if that is your choice, is a good 
option. And right now people till this day will confuse 
internships with apprenticeships and they are very different.
    So there needs to be an education process that is 
expensive. You can't just do a one and done and expect to 
change hearts and minds when that has--they have been getting a 
different narrative for a generation now. So I think those two 
areas are a place for investment as well as the work that you 
are already doing around Pell eligibility and other obstacles 
that exist in the system. I do have to apologize. I have to be 
in Fort Collins for a meeting with their chamber for CareerWise 
so I have to excuse myself.
    Chairman CROW. Yes. If you could just get the closing 
statement. Give me a couple of more minutes and then I can 
gavel out, that would be great. Thank you, Noel. Mr. Kaplan?
    Mr. KAPLAN. Yes, I think there is two things also from my 
perspective. The first is that throughout the country you are 
seeing more and more States move away from extraction industry 
economy. Some States are balancing very well outdoor recreation 
and extraction, but in here in Colorado as an example out in 
Gunnison, 83 percent of the land surrounding Gunnison and 
Crested Butte are public lands, much of which had extraction 
industry on it in the past and has been now abandoned so they 
are now converting over to outdoor recreation economy.
    And as a part of that, many of these areas similar to that 
are also trying to foster investment there around small 
businesses and startups and you are seeing across the country 
many new startup accelerators starting to come forward to 
promote the outdoor industry small business sector and create 
an opportunity for these small businesses to get off the 
ground.
    So I think funding around small businesses and 
entrepreneurship in terms of some of these accelerators and 
grant dollars that are available is going to be very important. 
And the other thing I think also, it has come up a few times, 
our veterans. And what a lot of people don't realize is that 
the outdoor industry manufactures a tremendous amount of gear 
used by our armed forces. And it is the most hardcore people 
using the most hardcore products in the most hardcore 
environments, and many, many outdoor brands use that.
    So there is already a familiarity with the product, with 
the technologies being used, whether it be fabric technologies 
or electronic technologies, and so being able to create an on-
ramp for those veterans to come into our industry using at or 
working for brands and products that they actually are already 
familiar with would be a great and a tremendous opportunity. 
Thank you.
    Chairman CROW. Mr. Edmondson?
    Mr. EDMONDSON. I have actually got two parts to this 
answer. Number one, I think it belongs--it starts in high 
school, funding of programs like for Ms. Grobbel. I am a 
product of the 70s. We had a thing called Vo-Tech. They got 
tired of us. They threw us out of the high school and said get 
on the bus, you ride 35 miles to the bigger town down the road, 
and we could take welding, auto body, machine shop. There is 
like five different classes that provided such a good 
foundation.
    For some of us, we were not college-bound. I am from a 
poor, poor County Southeast Kansas. College was virtually not 
an option for probably 80 or 90 percent of us, and I can safely 
say that instructor--I think his name to the Jim Mayfield--two 
years of welding and he would run that class with an iron fist. 
I look you in the eyes and say he saved my life. I would be 
dead or in prison now if it wasn't for that skill I learned.
    So if we could help Ms. Grobbel, these other schools have 
an alternative path for somebody that is not going to go to 
college, that don't mean they are bad people. I don't mean they 
are not smart. That doesn't mean they are not willing to work. 
We need a path for these type of people. Second off, our 
industry is funded by employer contributions, investments in 
infrastructure is what puts us on the map.
    I-70, not fun to drive now, but it is going to be. We got 
lots of people working there. Kiewit has over 245 people 
working there, operating engineers alone as we speak. Without 
these jobs going our funding goes down. So any investment in 
our infrastructure is what would keep us on the map.
    Chairman CROW. Thank you. Based on the testimony today, 
some really good follow-ups for us on the committee. I really 
appreciate your variety of perspectives. We are able to get a 
lot of different perspectives here, which I appreciate and I 
appreciate your time very much. So I look forward to working 
with all of you going forward to identify more opportunities. 
We will follow up as well with some additional questions.
    I really think this is an opportunity for really a win-win-
win here. You know, this is where our communities can win, our 
kids can win, and our businesses can win, and we can kind of 
grow the pie for everybody. And frankly, those are great 
opportunities and I think you can find a situation in my role 
where a lot of people can come out of this better off.
    And I look forward to working with all of you on that. So 
thank you for sharing your testimonies and answering questions 
and providing that perspective. I am going to go through an 
incantation here now before I wrap it up. So I would ask the 
unanimous consent of me, that members have five legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, that is so ordered.
    And if there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 12:11 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                            



                                 <all>
</pre></body></html>
